<html>
<title> - GPO IN 2023: KEEPING AMERICA INFORMED IN A POST-PRINT WORLD</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
      GPO IN 2023: KEEPING AMERICA INFORMED IN A POST-PRINT WORLD 

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                Held in Washington, DC, December 4, 2013

                               __________

      Printed for the use of the Committee on House Administration

                       Available on the Internet
                             www.fdsys.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

86-569 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                   COMMITTEE ON HOUSE ADMINISTRATION

                 CANDICE S. MILLER, Michigan, Chairman

GREGG HARPER, Mississippi        ROBERT A. BRADY, Pennsylvania, Ranking 
PHIL GINGREY, M.D., Georgia        Minority Member
AARON SCHOCK, Illinois           ZOE LOFGREN, California 
TODD ROKITA, Indiana             JUAN VARGAS, California 
RICHARD B. NUGENT, Florida

                        Professional Staff

                       Kelly Craven, Staff Director
                  Kyle Anderson, Minority Staff Director



      GPO IN 2023: KEEPING AMERICA INFORMED IN A POST-PRINT WORLD

                              ----------                              


                      WEDNESDAY, DECEMBER 4, 2013

                          House of Representatives,
                         Committee on House Administration,
                                                     Washington, DC
    The committee met, pursuant to call, at 10:30 a.m., in room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
(chairman of the committee) presiding.
    Present: Representatives Miller, Harper, Nugent and Brady.
    Staff Present: Kelly Craven, Staff Director; Peter 
Schalestock, Deputy General Counsel; Yael Barash, Legislative 
Clerk; Salley Wood, Communications Director and Deputy Staff 
Director; Bob Sensenbrenner, Senior Counsel; John Clocker, 
Director of Policy and Planning; Katie Ryan, Professional 
Staff; Reynold Schweickhardt, Director of Technology Policy; 
Kyle Anderson, Minority Staff Director; Matt Pinkus, Minority 
Senior Policy Advisor; Matt DeFreitas, Minority Professional 
Staff; Khalil Abboud, Minority Deputy Counsel; Thomas Hicks, 
Minority Senior Counsel; Mike Harrison, Minority Chief Counsel; 
Greg Abbott, Minority Professional Staff; and Eddie Flaherty, 
Minority Chief Clerk.
    The Chairman. I call to order the Committee on House 
Administration for today's oversight hearing on the Government 
Printing Office. First of all, the hearing record will remain 
open for 5 legislative days so all Members may submit any 
materials that they wish to be included in the record.
    And we do have a quorum, so we can proceed.
    First of all, I want to offer sort of belated 
congratulations to our witness today, Ms. Davita Vance-Cooks, 
on her appointment. She is the 27th Public Printer of the 
Government Printing Office. And I think certainly we can all 
appreciate your appointment and your service in so many ways. 
You are the first female to serve as the Public Printer. You 
are also leading an agency through what can only be 
categorized, I think, as a very historic transition, sort of 
evolving to meet the digital demands for the 21st century, 
which is a huge task for an agency and tremendous 
responsibilities that you have for the American public. So we 
welcome you and congratulate you.
    For 150 years, the GPO has been responsible for the 
collection, production, distribution, and preservation of 
public information for all three branches of government. It is 
an historic and proud institution that has served this Nation 
well as the printer of record for Congress and the Federal 
Government. Its decades-long service throughout our history is 
a testament to its employees, many of whom are here today, and 
we welcome all of you; its institutional values; its commitment 
to our commonly held dedication to making self-government 
function transparently and efficiently.
    However, in the 21st century, the GPO is navigating a very 
changing information landscape as government information and 
its consumers transition from print to electronic formats. And 
this tradition presents both challenges and opportunities.
    At the request of Congress, the National Academy of Public 
Administration conducted a review of the current state of GPO 
and its ability to meet the digital demands of the future. And 
their report, which was released earlier this year, suggests 
that all facets of the GPO will need to be realigned. 
Everything from its digital publishing and preservation efforts 
to its workforce size, skill sets will need to be reevaluated, 
and even its property management. In fact, according to the 
Academy, with declining print demands, GPO is projected to run 
out of money actually in 2020 unless it overhauls its current 
business model. And this is, unfortunately, a familiar 
situation for many public entities, as well as many private 
entities.
    So it will undoubtedly be a difficult transition, but one 
that is essential to GPO's core mission of keeping America 
informed. And today we certainly are very interested in hearing 
from our witness about her vision for the GPO in the next 10 
years, how she plans to address some of the recommended changes 
that were outlined in the Academy's report. For example, with 
the decline in revenues due to a decline in print demands, the 
Academy recommends that GPO explore service offerings that can 
be provided on a cost recovery basis. And furthermore, how will 
the GPO adjust to produce limited copies of official documents 
in a cost-effective manner?
    NAPA also states that organizational, and operational 
efficiency and cost savings can be achieved by consolidating 
regional as well as D.C. office locations, space, and staff. 
The cost of maintaining the North Capitol Street office space 
is about $40 million, over a third, actually, of GPO's overhead 
annually. I know we will want to hear about your ideas and 
plans in that regard as well.
    So these are all important questions and issues that we 
want to discuss today, and in the future as well, as we 
continue to reduce government spending and increase operational 
efficiency and transparency.
    I also want to acknowledge some of the really great 
progress that GPO has made in the digital front. Working with 
this committee, GPO has made significant reductions to the 
number of committee reports and House documents to better meet 
committee and House needs. GPO also, for the first time, 
published the Congressional Pictorial Directory in an app. And 
in coordination with the Library of Congress, they have 
produced a Congressional Record app as well. The app trend 
continues in 2013 with the release of the first app of the 
Constitution annotated.
    So these are very important advancements that are necessary 
to preserve GPO's mission in the technology-driven society and 
world in which we live. I know the committee is interested in 
learning how GPO will continue to serve the legislative and 
informational needs that we have here in the Congress and in 
government, and how GPO will be transforming itself into the 
modern-day information repository so that it may remain the 
primary-source publisher, as it has for the past 150 years.
    Again, I certainly want to congratulate you on your 
appointment. We appreciate you coming today, and we appreciate 
your dedication to GPO as well.
    And at this time I would like to recognize my colleague, 
Mr. Brady from Pennsylvania, for the purposes of his opening 
statement.
    Mr. Brady. Thank you, Madam Chairman, and thank you for 
giving our new Public Printer, the Honorable Davita Vance-
Cooks, the chance to share her vision for the Government 
Printing Office over the next decade.
    Ms. Vance-Cooks, who took office as the 27th Public Printer 
in August after acting in the capacity for over a year, has 
brought great enthusiasm, experience, and skill to the 
position. We are lucky that you are there.
    GPO has long been managing the implications of digital 
publishing of government information. They are the experts. I 
want to hear GPO's thoughts on technology's effect on its 
mandate to keep America informed. We need to know how this 
committee can help GPO fill its mission. And I look forward to 
working with the chairman and the new Public Printer to ensure 
that result.
    Welcome, and I look forward to your testimony.
    The Chairman. I thank the gentleman.
    Other Members for an opening statement?
    Mr. Harper. The chair recognizes the gentleman.
    Mr. Harper. Thank you, Chairman Miller. And thank you very 
much for having this hearing.
    And, Ms. Vance-Cooks, I appreciate you appearing before the 
committee today and offering your views and vision of where the 
Government Printing Office will be 10 years from now, which is 
a challenging prediction sometimes.
    The GPO has long served an important role in our democratic 
system of government by providing both officials and citizens 
relatively easy access to a broad range of public documents. 
That role is changing. I have been in Congress now for 5 years, 
and in that time my office has discontinued receiving the print 
editions of the Federal Register, the Congressional Record, 
committee reports, as well as bills and public laws.
    With that kind of fundamental change in demands from your 
primary customers, I think we can all understand the challenges 
that you and your organizations face. You are responsible for 
over 1,800 employees and a government agency that operates more 
like a business. You generate most of your revenues and produce 
retained earnings; however, these revenues are declining. Your 
business, the printing business, is changing, and the GPO is, 
in fact, an agency of the Federal Government and does receive 
an annual appropriation. Therefore, congressional oversight is 
in order.
    Particularly in light of the GPO's declining revenues and 
our desire to maintain public access to government documents, I 
believe it is important for this committee to examine the 
changes that you are undertaking now in order to help ensure 
that there is an efficient GPO operating tomorrow, and 
certainly 10 years and even further into the future. I look 
forward to hearing from you this morning and discovering how we 
might be of assistance to you.
    Thank you, and I yield back.
    The Chairman. Thank the gentleman.
    Any other Members have opening statements? If not, at this 
time I would like to introduce more formally our witness today, 
Davita Vance-Cooks, the 27th United States Public Printer. On 
August the 1st of 2013, the Senate confirmed her as the United 
States Public Printer, and this marked a very historic 
occasion, as she is the first woman and the first African 
American to lead that agency.
    She joined GPO in 2004, and has served the institution in a 
variety of leadership capacities. She began as the Deputy 
Managing Director of Customer Services, with the responsibility 
of overseeing GPO's liaison with Federal agencies for in-house 
print production and printing procurement services. She then 
served as the managing director of its publications and 
information sales business unit, where she oversaw a large 
print distribution supply chain operation, with customers 
across the United States.
    In January 2011, Ms. Vance-Cooks was named the GPO's Chief 
of Staff, which carried the responsibility of forming and 
implementing GPO's strategic performance plan and overseeing 
its buyout program that reduced agency staffing levels by 15 
percent. In December of that year, she was named Deputy Public 
Printer, and in that capacity, she served as Acting Public 
Printer from January 2012 until August of 2013.
    She has been an extremely positive force within the agency 
as she worked to cut costs and expand the availability of 
government information in the digital age. And prior to serving 
at the GPO, she was a senior vice president of operations at 
NYLCareMidAtlantic Health Plan, and held several management 
positions at Blue Cross Blue Shield.
    So, again, we thank you so much for joining us today. This 
committee is very interested in hearing your testimony. And as 
I mentioned to you in the hall before we started the committee 
hearing today, I hope you look at this committee as a resource 
as well for working with you in every way that we can as you 
meet--your agency meets so many of the challenges ahead. We 
certainly want to be, and are, a willing partner in seeing the 
changes that are going to be happening there.
    So at this time the chair now recognizes our witness.

  STATEMENT OF HON. DAVITA VANCE-COOKS, UNITED STATES PUBLIC 
                            PRINTER

    Ms. Vance-Cooks. Good morning, and thank you. Madam 
Chairman Miller, Ranking Member Brady, and members of the 
Committee on House Administration, thank you for inviting me 
here today to discuss GPO in 2023: Keeping America Informed in 
a Post-Print World.
    As you know, GPO works closely with the House to provide 
the information, products, and services which the House needs 
to carry out its legislative function. Through our programs and 
services, GPO performs an informing function on behalf of the 
House and the Senate that is traceable to the Constitution. 
Specifically, we provide the means of acquiring information 
about the government that President James Madison said is so 
vital to maintaining an informed and enlightened public in our 
system of self-government.
    To that end, the GPO is positioning itself to keep America 
informed in a postprint world by shifting from a print-centric 
to a content-centric operation, thereby increasing the digital 
and value-added services that we can provide to Congress.
    The shift to a content-centric operation was independently 
affirmed by the National Academy of Public Administration. In 
January of 2013, they issued their findings, which state that 
GPO's core mission of authenticating, preserving, and 
distributing Federal information remains critically important 
to American democracy in the digital age.
    Our digital transformation points to a profound change in 
the way GPO operates today. We are more than just a printer. We 
are the Government's publisher, and as that publisher, we 
provide value to Congress, Federal agencies, and the public, 
because we have a diversified product and services portfolio 
that focuses on digital.
    We support openness and transparency in the Federal 
Government by providing permanent public access to Federal 
Government information at no charge through our Federal Digital 
System, which is known as FDsys. FDsys today has over 900,000 
titles available online, with 40 million documents downloaded 
each month. It serves as the backbone of our long-standing 
partnership with approximately 1,200 libraries nationwide 
participating in the Federal Depository Library Program.
    Today we build databases, create bulk data downloads, 
produce e-passports and secure credentials, offer e-books, 
develop mobile apps, provide Web site design and hosting, 
engage in e-commerce activity, offer electronic content 
services, utilize digital equipment, develop digital products, 
and embrace a digital workflow process.
    To reflect the scope of our expanded services, we have 
rebranded ourselves as Official, Digital, and Secure. And with 
more than 95 percent of Government information being published 
digitally, the time has come for our name to reflect the 
modernization of these services. Our current name reflects a 
century and a half of proud tradition and history, which I 
respectfully embrace, but I also acknowledge that this name is 
limiting. Our current name does not adequately describe who we 
are. It does not adequately describe what we do. We are so much 
more than that.
    We are the Government Publishing Office. GPO is the 
Nation's publisher, and I am proud to lead a workforce of 
dedicated men and women who believe that our future lies in 
providing Government information to the American people in the 
forms and the format which they want and need. Changing our 
name to reflect our broad range of services is what the 
Academy's report has endorsed, and it is what we soon hope to 
achieve.
    Madam Chairman Miller, Ranking Member Brady, Members of the 
Committee on House Administration, this concludes my opening 
remarks. I will be happy to answer any questions you may have. 
Thank you.
    The Chairman. Thank you so very much.
    [The statement of Ms. Vance-Cooks follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I guess I will begin questions by picking up 
on the latter part of your comments, your testimony, about your 
name change. I have to say I think when you and I first met at 
the beginning of the year, we talked a bit about that, and I 
have given that a bit of thought. And just my own personal 
observation is that I think government agencies, much more than 
in the private sector where a business's name might have, you 
know, different kinds of reasons or branding or whatever for a 
name of a business, but in a government agency you try to be, I 
think, a little more descriptive of what you actually do, 
right? Whether you think about the Department of Education, we 
can all understand what they do, right? The Department of 
Agriculture, people understand what they do. Environmental 
Protection Agency, various things. So I think the government 
agency's name might seem like a small thing, but yet it is a 
way that the public can understand what you do. And I think as 
much as that, that you get your entire workforce to sort of buy 
into the vision of what it is that they are trying to provide 
to the public as well.
    So I am very appreciative of your willingness to change 
your name. I hope you are not offended by this, but I have to 
say going from the Government Printing Office to the publishing 
just doesn't seem like enough to me. So I respectfully throw 
that out there for a little bit of consideration.
    And I know I think it requires legislation for you to 
actually change your name. So I only say, you know--and I 
noticed when you came here, and you had many of your employees 
here, you obviously think about your agency in a team, as a 
team. And I am a big believer in teams. I don't care how much 
technology you have, at the end of the day, it is about the 
people, that they buy into the vision. And the name is a part 
of the vision. So you might want to think about, just my 
opinion, having a contest perhaps amongst your own team about a 
different name.
    I don't know if you have any comment on that. But I think 
having a new name, as I say, it seems like a small thing, but 
yet it is not really.
    Ms. Vance-Cooks. Well, first of all, I certainly agree with 
you that it is not a small thing to have a name change. I know 
that it is a significant opportunity for us to rebrand. And let 
me explain why we decided on Government Publishing Office.
    Too many times people ask, why do you need a Government 
Printing Office when everything is online? And we always have 
to tell people we are the ones who put it online to begin with. 
So we need to make sure that we change our name to reflect the 
brand of services that we provide. And the reason why we 
thought of the word ``publishing'' is because when you look up 
publishing, it defines services. It defines a broad range of 
services that support information dissemination. Printing is 
just a small component.
    When people think of printing, they think of ink on a 
substrate. That is just one component of what we do. But today 
when you talk about all of the things that people are doing in 
terms of communicating, they are using the word ``publishing.'' 
And the word ``publishing'' has become very synonymous with a 
broad range of services in the community.
    So really what we are trying to do with our name change is 
to attract the millennials. We are trying to attract the rising 
group of population that need to be aware that we have the 
services that they can provide. But when they hear the word 
``printing,'' they stop cold. And to be quite frank with you, 
it fits our acronym, GPO.
    The Chairman. Well, we all have to think outside the box. 
Not to argue that point, but I remember my great State of 
Michigan, we changed the name of the social services agency to 
the Family Independence Agency.
    Ms. Vance-Cooks. It worked.
    The Chairman. It worked. It was just a whole different 
mind-set. So I won't keep belaboring that.
    Ms. Vance-Cooks. Thank you for your support in this. I 
appreciate it.
    The Chairman. You mentioned, and I mentioned, and the 
ranking member mentioned as well about you have made great 
strides in reducing the workforce, really by 70 percent since 
the 1980s. We were looking through some of the numbers here 
before the hearing. So you went from 6,450 employees in the 
1980s, and then in 1998 you had about 3,400, and today you have 
1,900 employees. That is a really dramatic change in the amount 
of employees that you have there. Still a ways to go, though.
    So I guess I would ask you, as we talked about during the 
upcoming next 10 years, how do you see that workforce 
numerically evolving, as well as, with your new name change, 
whatever it ends up being, what they will be doing?
    Ms. Vance-Cooks. The GPO has a history of adapting to 
technology. When you look at our history, you will see that we 
have changed from a print-centric operation to a content-
centric operation, and as we have adapted our technology, our 
productivity has increased. And as the productivity has 
increased, we have been able to reduce or right-size the staff. 
We have a history of right-sizing our staff through attrition 
and through buyouts. It has not been a disruptive process.
    Considering the fact that the GPO is undergoing a digital 
transformation, one in which technology will play a critical 
role, we believe that it is an indicator that we may eventually 
have to right-size again. But when we right-size, as we have 
always done in the past, we do it gradually, and we do it when 
it makes sense for us.
    I can say that because we are engaged in a digital 
transformation, the skill sets will change. The skill sets will 
be a mix of production, digital production. We will be looking 
for people who are experienced in digital production, digital 
management, digital product development. That is because we 
need to make sure that we have an organization that is lean, 
agile, and very responsive to our stakeholders.
    The Chairman. If I could just follow up on that, I was 
looking through your employee records, et cetera, and noticed 
that, for instance, you have your own police force, 
essentially. And I have a question about that. Do you need such 
a thing? As you know, this committee has oversight of the 
Capitol Police, and they--particularly with sequestration, and 
then we had the shutdown and various kinds of things and some 
of the incidents that have happened, et cetera, we have really 
been looking at everything there and how we can resource them 
properly, et cetera. But somehow that struck me as odd, that 
the GPO would have their own police force. And have you looked 
at that--I know that is a more recent thing, actually--and 
whether or not you could contract with the Capitol Police or 
some other Federal agency, or is that an area that you would 
look at?
    Ms. Vance-Cooks. The GPO operates like a business, as one 
of you has mentioned. In fact, many of you have mentioned that, 
and I appreciate your understanding of how we are set up. We 
only receive appropriations for about 16 percent of our 
funding. The balance, we have to earn it. And we earn it 
through reimbursable goods and services. So we pay for our 
Police, we pay for our IG, we pay for all of those functions 
that are governmental in nature.
    The question as to whether we need police, well, yes. We 
need police to protect the security of our people and to 
protect our assets. Of course we do. But the question as to 
whether or not they should be merged with the Capitol Police, 
or whether they should be separate is something that we are 
always open to discussing, especially because we do pay for it. 
It is about $6 million annually.
    The Chairman. Yeah. That is just what really grabbed my 
attention. I thought, my goodness, that is a rather large line 
item for security.
    Ms. Vance-Cooks. And you mentioned earlier that you are 
willing to serve as a resource, which we very much appreciate. 
And if you would like to take a look at that, and we would work 
with you, we would be happy to do so. But our police force does 
work. We are very proud of them.
    The Chairman. Yeah. I appreciate that. Okay. Yes, that is 
an area I am sure we can work together.
    And then I guess my final question, when we are thinking 
about efficiencies and cost savings, et cetera, as you know, 
the Congress, this committee has been responsible for cutting 
in-house MRAs, all the individual congressional budgets, 
actually over the last several years. There has been about a 20 
percent cut for the MRAs, and all the committees have had a 
similar amount of cut in-house. And so part of all of our 
budgets, of course, are printing costs, et cetera, et cetera.
    And so we are making these reductions in our budgets, 
whether that is in the committees or the individual Members of 
Congress, and yet you actually have raised your rates this 
year. As a customer I am now asking you, you raised your rates 
this year 3.5 percent, and potentially another 3.5 percent 
after an evaluation at the end of the year. And since we all 
have really a mutual constituency with the taxpayers, what are 
your thoughts on that?
    Ms. Vance-Cooks. When we raised the rates, we did so with 
great analytical precision. We took a very good look at the 
costs that we are incurring in printing and in producing these 
documents, and we realized that we had not raised the rates in 
a while, and that the rates were not keeping pace with 
inflation. We have been absorbing that cost. And as I mentioned 
earlier, we have to earn quite a bit of our funding. And so 
this was a business decision that we did not make lightly. It 
reflects the need to cover our costs as noted in Title 44.
    The Chairman. All right. I appreciate that.
    And the chair now recognizes the gentleman from 
Pennsylvania.
    Mr. Brady. Thank you, Madam Chairman.
    How did the October government shutdown affect you?
    Ms. Vance-Cooks. The October shutdown impacted us in terms 
of our productivity, our revenue, our expenses, our 
stakeholders, our vendors, and our employee morale. And let me 
talk about each one, if I may, for just a moment.
    We furloughed 70 percent of our staff. The 30 percent of 
the staff who remained who were excepted are individuals who 
had to protect the security, protect our assets. They supported 
the legislative process for Congress, and they supported the 
Federal Register, which issued regulations related to life and 
health.
    This was a tough time for us, because when we explained to 
the employees that they were going to be furloughed, we had to 
make sure that they understood it had nothing do with the job 
that they did; it was simply that we were following the strict 
guidelines and the strict rules of the furlough.
    It impacted our productivity, because we lost approximately 
128,000 hours of productive time. That doesn't even count the 
time that we spent preparing and recovering from the furlough.
    It impacted our revenue. We estimate that we lost about $30 
million during that time period. Our expenses remained the same 
because the building was open. And then when the shutdown was 
over, we had to spend quite a bit of money in overtime, because 
we had backlogs that had piled up, and we had to make sure that 
we could get back to production as quickly as possible. We were 
told that it would take about 3 months for an average agency to 
get back on track. We don't have that luxury. We had to make 
sure that we do it as quickly as possible, so we had to spend 
overtime.
    It caused quite a bit of pain for our stakeholders, one of 
which was the Federal Depository Library Program. We had 
planned our annual conference. It was scheduled for October. We 
had 300 librarians who signed up. We had to cancel. They had to 
cancel their flights. They had to cancel their hotel room 
reservations. They were scrambling for refunds.
    We had vendors who were in significant distress. As you 
know, we have a printing procurement function which is 
responsible for providing printing services for agencies. These 
are small businesses throughout the United States. They had 
performed work for us. They wanted to be paid. We could not pay 
them because we were not allowed to pay them. We received 
several vendor distress calls because they could not make 
payroll. And this was a significant problem for us, and we felt 
it very much.
    It caused problems with employee morale because they were 
upset that they had to be furloughed. Our employees believe in 
their strategic mission. They wanted to come to work. They 
wanted to be here to work for and on behalf of Congress. And 
when they came back, I was there waiting to greet them, to 
welcome them back. And I walked around to say hello, and when I 
got to one of the offices, in fact it was the IT office, there 
was a sign on the door, Congressman, and it said, ``Glad to be 
back with the GPO,'' with a happy face. And that just about 
sums up exactly what it did to us.
    The biggest lesson we learned, however, was that public 
access to information is critical. Our FDsys, our content 
management system, had spikes in retrievals on congressional 
materials. So we know we are on the right track with FDsys and 
with public information.
    Thank you for giving me an opportunity to address that.
    Mr. Brady. Thank you.
    And I noticed that you do rent space out to the Capitol 
Police. Well, I guess my question is twofold. Our committee 
passed a bill that would merge Capitol Police and the Library 
of Congress. If they are already there, it might be cost saving 
for you to think about merging with them. Now, a lot of things 
happened because of the different pay scales, different--we had 
to do that. It wasn't that easy. Different retirement packages, 
different health and welfare packages. But I will be glad to 
work with you on that.
    Ms. Vance-Cooks. Thank you.
    Mr. Brady. But also you giving out a lot of the space, are 
you guys interested in moving?
    Ms. Vance-Cooks. No, we are not interested in moving, and 
let me explain why. And let me talk a little bit about the 
space situation.
    The Government Printing Office building has 1.5 million 
square feet measured by perimeter, and about 250,000 of that 
square feet is just unusable because it is airwells, 
stairwells, hallways, and so on and so forth. And we lease 
currently about 100,000 square feet to four renters. Those four 
renters give us about $1.7 million annually to help defray the 
cost of the utilities.
    As we speak today, we have about 70,000 square feet 
available to rent, and we are talking to several agencies to 
see if they are interested. Our goal is that by 2023, the GPO 
building will house a number of government agencies.
    And I don't believe that we should move for a number of 
reasons: One, the close proximity to all of you, to Congress, 
to our stakeholders; two, the close proximity to our agencies. 
They, too, are our customers. Three, several years ago a study 
was conducted to score what it would cost for us to relocate, 
for a new building to be constructed, and it came up to $320 
million. That is too much money. It is easier for us to stay 
where we are, in close proximity, serving Congress, serving the 
agencies. And so at this point we are not interested in moving, 
but we would certainly like to fill the space.
    Mr. Brady. Madam Chair, I have one more quick question.
    The Chairman. Of course.
    Mr. Brady. When I first became chairman of this committee, 
I got named at 12 o'clock in the afternoon, and at 12:30, when 
I walked back to my office, I had a line of bargaining units. 
Labor contracts were not renewed for many, many years. We 
worked real hard in getting that done. And I am assuming that 
everything is well on the labor front because I have nobody in 
front of my office, unless they are in front of your office. 
But I have nobody in front.
    But I am sure that, you know, like I said, we were 
instrumental--this committee did the bill for the Capitol 
Police merging with Library of Congress. We would offer our 
help if you would like to look at maybe a cost saving or some 
type of saving, and maybe better protection that way. I am not 
trying to eliminate anybody's position there.
    But, again, how is the labor front? The contracts are being 
renewed, everybody is okay there? I would assume that they are, 
because, again, I am not getting any calls from them.
    Ms. Vance-Cooks. The GPO has 13 unions, and I think that we 
are----
    Mr. Brady. I know. Tell me about it. I did 13 negotiations.
    Ms. Vance-Cooks. We are tremendously lucky because the 
unions have been extremely collaborative with us. We could not 
have made half of the changes that we have made to improve the 
organization without the help, and the assistance, and the 
understanding of our labor partners. In fact, I have several 
labor partners here in back of me. They came on their own 
accord, and I appreciate their attendance, because they are 
extremely supportive of what we are doing. And the reason is 
because we are taking the time to work with them to make sure 
they understand, because they are the voice of the employees.
    In terms of wage negotiations, we have been fortunate 
because we are currently working with the unions to make sure 
that our wage increases now are equivalent to the civil service 
increase. They understand the need to drive our expenses down 
and to reduce them, and so they have willingly accepted that. 
This is good, and I am proud to work with them.
    Mr. Brady. Thank you, Public Publisher.
    Ms. Vance-Cooks. Thank you, sir.
    The Chairman. I thank the gentleman very much.
    And before I recognize the gentleman from Mississippi, I 
would ask unanimous consent to enter into the record two items, 
a statement from the National Academy of Public Administration 
on the challenges facing the GPO, and a report from the 
National Academy of Public Administration, Rebooting the 
Government Printing Office: Keeping America Informed in the 
Digital Age. Without objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. The chair now recognizes the gentleman from 
Mississippi.
    Mr. Harper. Thank you, Madam Chair, and thank you, Ms. 
Vance-Cooks, for being here with us. Great to see you again.
    Ms. Vance-Cooks. You, too.
    Mr. Harper. And I am thankful that I don't have to learn 
any new initials, regardless of what the name finally winds up. 
That is a good thing.
    And also I want to say last year I toured the passport 
facility down in Mississippi at the Stennis Space Center, which 
was a remarkable tour. Very impressed with the thought and the 
security that goes into producing a passport, and a great 
workforce there.
    I know there are a lot of challenges. We are in an 
interesting and pretty difficult budget day and future. And I 
just want to ask a couple of questions, because we know that in 
any organization, and you are trying to run this like a 
business, the main overhead costs or operating costs are always 
going to be employees and your overhead for rent and such.
    You mentioned that 250,000 square feet are unusable in that 
building; is that correct?
    Ms. Vance-Cooks. That is right.
    Mr. Harper. All right. And then you said your desire is to 
rent, lease another 70,000 square feet that is available 
perhaps to other agencies? Is that what I----
    Ms. Vance-Cooks. At this time.
    Mr. Harper. At this time?
    Ms. Vance-Cooks. Yes. Because we are trying to consolidate 
our operations and move people into one area so that we will 
eventually have more space to lease to them. Right now we are 
using about 80 percent of the usable space in our building.
    Mr. Harper. How much do you currently lease out to others?
    Ms. Vance-Cooks. One hundred thousand square feet.
    Mr. Harper. All right. So we have got 100,000 square feet 
that is being used, at least 70,000 square feet, perhaps more, 
that may be available, and 250,000 square feet that is just 
using up airspace right now.
    Ms. Vance-Cooks. Right now, yes.
    Mr. Harper. All right. How much are you hoping that you 
will receive? Let us assume you could lease 70,000 square feet. 
How much revenue, or rent, or lease income would you see off of 
that, or would you hope to see?
    Ms. Vance-Cooks. Well, right now we receive about $1.7 
million with the current renters.
    Mr. Harper. Of the 100,000 square feet.
    Ms. Vance-Cooks. Of the 100,000, right. And that covers--we 
know that our utilities--that would be the water, electricity, 
steam--cost about $10.5 million. So what we want to do is to at 
least rent enough to cover the $10.5 million that we spend in 
our overhead for that particular area.
    Mr. Harper. All right. You are currently paying, I believe, 
is it $1.8 million for extra warehouse space separate from that 
building? Is that correct?
    Ms. Vance-Cooks. What are you referring to?
    Mr. Harper. Well, you are leasing extra warehouse space and 
regional office space separate from what you have currently on 
the campus.
    Ms. Vance-Cooks. Are you referring to the regional offices?
    Mr. Harper. Yes.
    Ms. Vance-Cooks. Okay. The regional offices are actually 
inhabited by people. I mean, they are used--that space is being 
used. But this is an interesting point, Congressman, because we 
have decided to reduce the space that at least four of those 
regional offices are using, and we have done that already. That 
would be the Hampton office, which is now in Virginia Beach; 
Atlanta; Philadelphia, and Columbus.
    Mr. Harper. So will that dollar amount be reduced as the 
space is reduced?
    Ms. Vance-Cooks. That is right.
    Mr. Harper. Is that you are what you are anticipating in 
future years?
    Ms. Vance-Cooks. That is exactly right.
    Mr. Harper. Now, I know you mentioned the furlough. The 
furlough lasted 16 days?
    Ms. Vance-Cooks. Yes.
    Mr. Harper. Okay. And 70 percent of the staff was 
furloughed?
    Ms. Vance-Cooks. Yes.
    Mr. Harper. Were they furloughed for that entire time?
    Ms. Vance-Cooks. Yes. In fact, it ended up that we had to 
furlough additional staff, because when we furloughed, we 
initially had the 30 percent who were excepted, with the 
understanding that it would be a skeletal staff and that it 
would be scalable. The assumption was that if the congressional 
workload increased, we would add more, or if it declined, we 
would send them home. Unfortunately, it declined. Midway 
through we sent some home.
    Mr. Harper. Now, just so that I am clear and sure, everyone 
who was furloughed ultimately was made whole and got their pay; 
is that correct?
    Ms. Vance-Cooks. Yes, sir.
    Mr. Harper. Okay. It sounds like that wouldn't be a bad 
thing for morale perhaps to at least know that they were made 
whole. They did not suffer an ultimate economic loss. That is 
what I want to be sure of.
    Ms. Vance-Cooks. Well, you are right in the sense that they 
were made whole, but what I was referring to is how they felt 
about the furlough during the time that it occurred.
    Mr. Harper. Sure. I understand. I understand. But I did 
want to make sure that they were--they did not suffer a loss in 
income.
    Ms. Vance-Cooks. No.
    Mr. Harper. Okay. Well, look, I want to say that we are 
here to work with you, and we appreciate what you are doing. We 
have been very pleased with the relationship we have had with 
GPO. And we look forward to continue that and are available to 
work with you. Thank you.
    Ms. Vance-Cooks. Thank you very much, sir. Thank you.
    The Chairman. The chair recognizes the gentleman from 
Florida Mr. Nugent.
    Mr. Nugent. Thank you, Madam Chair.
    And, Ms. Vance-Cooks, congratulations.
    Ms. Vance-Cooks. Thank you.
    Mr. Nugent. I think it is an awesome opportunity for you, 
obviously at this time of transition.
    Having run an organization not quite as large as yours, but 
having faced financial challenges, I commend you in regards to 
the way you deal with personnel. Particularly when you have to 
make tough decisions, it is always better if you can do it 
through attrition than through layoffs. I mean, it means so 
much more to your workforce, I know.
    But, you know, with the report that came out and the 
deficit you are going to run--I mean, you have talked about a 
number of things; trying to cover utility costs for that 
facility. But I also know that it is what, $40 million a year 
to operate it. I don't know if that is the $10 million for 
utilities. But how are you going to do that over the next 10 
years? Because digital, it is hard to sell digital. But you 
have obviously operational costs to actually take 
transcriptions and put it into a digital format. How do you see 
yourself actually meeting that demand with reduced income 
coming into your coffers?
    Ms. Vance-Cooks. I would like to address that question in 
two parts. The first is your reference to the report in NAPA 
that describes that we are going to lose funding by 2020. And 
then I would like to talk about some of the initiatives that 
are in place for us to increase our revenue.
    The report talks about the fact that we will run out of 
money in 2020. The NAPA report is what is called a best 
practices report. They were presenting a worst-case scenario. 
They were presenting an acid test. And they believe very much 
in scenario planning, as do we. Scenario planning is where you 
talk about what if, what will happen, what happens if this 
occurs. But they say specifically, and when you look further in 
the text they describe a number of assumptions which they made 
as part of that model which they know must be updated.
    For example, they did not take into account the savings 
that we would achieve from our investments in new technology 
and equipment. That model did not take into account the leasing 
revenue. The model did not take into account the additional 
revenue we will get from the next generation of passports, 
which will be launched in 2015 and 2016. The model also did not 
take into account the $30 million that we generated in savings 
through the buyout as it is distributed through the business 
units. It also assumes that we will have a head count of 1,925, 
when, as you have noted, we operate with fewer than 1,900 
employees. It also assumes that plant operations, their direct 
costs, will be constant, when, in fact, they are running at 8 
percent lower than they were at that time.
    It doesn't even take into account the accounts receivable 
issue. At the time that report was generated, we had $29 
million in account receivables outstanding. We have a dedicated 
group that is responsible for collecting it, and it is now down 
to $8.3 million. Our overhead is now trending at a 2008 level.
    We have done a very good job in managing our costs, and so 
I want you to understand that they were simply describing a 
worst-case scenario. We are not going to run out of money, 
given everything we have done with these expenses.
    But that takes me into point number two, which is what are 
we planning to do to increase our revenue? Sir, we have a 
product portfolio that is specifically designed to take a look 
at that. It has three categories: tangible print, digital, and 
hybrid. The tangible print is that which we are accustomed to, 
the hearings, committee reports, anything you can touch. The 
digital, of course, is anything that refers to digitization of 
print. This is where we see the future, as you so aptly noted. 
This is where you will find our pre press operations, FDsys, e-
books, mobile apps, things of that nature. And then the last 
category is the hybrid. This is where you have tangible plus 
digital, with an overlay of electronics. This is where you will 
find the passports and the smart cards.
    This product portfolio that I have described to you has 
very porous rows in it. In other words, it is integrated and 
synergistic, and they all depend on each other.
    Mr. Nugent. And obviously, some have a higher profit margin 
than others.
    Ms. Vance-Cooks. Exactly.
    Mr. Nugent. And my question in follow-up to that would be 
as relates to the passport, you must know what your markup is 
on a passport. And you mentioned that that is another area 
that, as passports change and morph, there is greater 
opportunity for you to bring more revenue in.
    What do we expect that to be? I mean, what is our markup on 
passports today, and what do you expect that to be?
    Ms. Vance-Cooks. Well, first of all, sir, we don't mark up 
passports. The price point for a passport is based upon four 
components. It is based upon capital investment, labor, 
overhead, and materials. And it is a negotiated price with the 
Department of State. And the volume of the passports is 
determined by the Department of State. So it could go up one 
year and down the other.
    And that is why we are looking at three other areas of 
revenue opportunities to take care of the issue. One is the 
agency customer market. The agency customer market as it exists 
today for all three products that I described to you is what I 
would call an untapped opportunity. We currently have a lot of 
business with the agencies through our print procurement 
business, but we don't really have all of it. We need to do a 
better job of targeting the agency customers to let them know 
about the three categories that we have, the broad range of 
services that we can provide to them, because unfortunately 
they think we can only do printing. So we need to take care of 
that.
    The second is the electronic content model that we are 
developing, which is what you just kind of referred to in terms 
of digital. We have FDsys at our disposal, and it is a powerful 
content management system. It is just tremendous. As I said 
earlier, it has 900,000 titles. Obviously, people use it. Forty 
million documents are downloaded each month. So we have 
developed a new product, sir, called electronic content 
services, and this is where we are going to the agencies to 
tell them we can ingest their content into FDsys. And this 
would give us content data, metadata; we can create a lot of 
things with it; we can provide them with public search and 
display.
    We think we found something, because we presented this 
product at the FOSE conference, there was so much interest. We 
also had a Webinar. We had over 100 customers, agency 
customers, who expressed interest in it. And we can charge for 
this.
    And then the third area would be smart cards, smart card 
credentials.
    Mr. Nugent. Well, Madam Chair, and I appreciate your 
comments, my time has expired. But for the record, if Ms. Cooks 
could respond as it relates to the digital security, 
cybersecurity, because we are talking about digital and cyber. 
You know, where do we stand within the agency in protecting all 
this information that has been gathered, particularly as it 
relates to passports and others? And so, if that could be for 
the record.
    Mr. Nugent. Thank you. I yield back.
    The Chairman. Very well.
    Well, again, we certainly want to thank you. I thank our 
witness for being here.
    I guess my just one final observation as the chairman 
listening to some of the questions here. In regards to your 
physical space--and I appreciate--I read through your testimony 
previously. I was listening very closely to what you had said 
there. But it is my opinion, and I know you don't want to move, 
but you have to be thinking in terms of being more aggressive 
about what you do with the space that you have, I believe, 
because it is about a third of all of your overhead you are 
spending for the physical building at North Capitol Street 
here, according to my notes here. Forty million dollars a year. 
So when you think about consolidation, and you mentioned some 
of your warehouse spaces that you have, your regional offices, 
et cetera, some of which you have already made some efforts to 
consolidate various things there, I think you really need to be 
more aggressive in thinking about that, because that is a huge 
expense.
    And, you know, I am not that familiar with everything that 
you do there, but, I mean, I know that what is in this 
Blackberry 40 years ago would have taken up probably a quarter 
of this room, right, spacewise. And so I know that the 
technology that is happening in the printing, publishing 
business has changed very rapidly as well, and so the physical 
space requirements have changed dramatically. And because that 
is still such a huge overhead for you, that will be something 
that this committee will continue to exercise its oversight on 
is looking at that.
    As we have all said, I think we want to assist you in ways 
that we can. And we have some good ideas here together. The 
ranking member and I both are pledging to work with you with 
your security situation and those kinds of things. So there is 
plenty of opportunity here for us to work with your agency to 
assist you.
    And, again, I would mention that all Members will have 5 
legislative days to submit to the chair additional written 
questions for the witness. And we will ask her to respond as 
promptly as she can so that those answers can be made part of 
the record.
    And at this time the hearing is adjourned. Thank you so 
much.
    [Whereupon, at 11:22 a.m., the committee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
